January 21, 2021

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Massachusetts Lobstermen’s Association v. Ross, Docket No. 20-97
Pending Petition for a Writ of Certiorari
Dear Mr. Harris:
Petitioners Massachusetts Lobstermen’s Association, et al., provide this letter to
inform the Court of a development that may affect its consideration of the pending
petition that has been relisted for the Court’s conference tomorrow, January 22,
2021. Yesterday, January 20, 2021, President Biden issued an executive order
establishing a policy “to restore and expand our national treasures and
monuments.” A copy of that order is attached at Exhibit A. In Section 3, titled
“Restoring National Monuments,” the order directs the Secretary of the Interior to
prepare a report addressing whether it would be appropriate for the President to
revoke Proclamation 10,049, 85 Fed. Reg. 35,793 (June 5, 2020), and restore the
fishing prohibitions within the Northeast Canyons and Seamounts Marine National
Monument. Petitioners submit that this development further undermines any
suggestion of mootness in this case. See Pet. 37-38 (discussing Proclamation 10,049
and the voluntary cessation exception to mootness).
We respectfully request that this letter with the attachment be brought to the
attention of the Court at the earliest possibility.
Sincerely,

Jonathan Wood
Counsel of Record for Petitioners
Attachment
cc: All Counsel

